No. _________

In the Supreme Court of the United States
GRETCHEN WHITMER, GOVERNOR OF MICHIGAN; JOCELYN BENSON, SECRETARY
OF STATE OF MICHIGAN; JONATHAN BRATER, DIRECTOR OF THE MICHIGAN BUREAU
OF ELECTIONS, IN THEIR OFFICIAL CAPACITIES, APPLICANTS
v.
SAWARIMEDIA L.L.C., ET AL.

PROOF OF SERVICE
The undersigned certifies that on July 10, 2020, she served the Emergency
Application to Stay the Preliminary Injunction Pending a Merits Decision by the
Court of Appeals by mailing same in an envelope bearing postage fully prepaid,
plainly addressed as follows and also emailing same to the email addresses provided:
Saura James Sahu
Attorney for SawariMedia LLC
Clancy Advisors
230 Nickels Arcade
Ann Arbor, MI 48104
sahu@clancyadvisors.com
310-849-1395

Judy Kellogg
Pro Se
2450 Krouse Road
Lot #337
Owosso, MI 48867
Judykellogg95@gmail.com
989-277-3228

Deborah Parker
Pro Se
21908 Gaukler Street
St. Clair Shores, MI 48080
alinosi@yahoo.com
313-550-2081

Paul Ely
Pro Se
12646 N. Red Bud Trail
Buchanan, MI 49107
Tlc.greenyard@yahoo.com
269-635-1611

/ s/ Holly Gustafson
Holly Gustafson
Legal Secretary

